M-123145

~cu

CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE

•• ·••·••-•-: ■■•■ :■
1916 Black River Blvd.
Rome, NY 13440
(315) 356-3000

VISA PLATINUM

VISA
VISA PLATINUM
VISA PLATINUM

This Disclosure is incorporated into and becomes part of Your LOANLINER®
Consumer
Credit Card Agreement &
VISA
PLATINUM
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
7.90%APR for Balance Transfers
15.90%
APR for Cash Advances
7.90%
Paying Interest
15.90%

7.90%

7.90%
7.90%
7.90%
7.90%
15.90%

7.90%

15.90%

Minimum Interest Charge

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases or balance transfers if You pay
Your entire balance by the due date each month. We will begin charging
interest on cash advances on the transaction date.
If You are charged interest, the charge will be no less than $0.50.

Fees
Annual Fee
- Annual Fee

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Transaction Fees
- Balance Transfer Fee
- Foreign Transaction Fee

None
1.00% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases and balance transfers) (including new cash
advances)." See Your Account Agreement for more details.
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at (800) 388-2000 to receive oral disclosures of the Military Lending Act disclosure above and a description
of the payment obligation.
SEE NEXT
PAGE for more important information about Your Account.
M-123145
M-123145
03105847-MXC20-P-1-081817 (MXC201-E)

© CUNA MutualM-123145
Group 2009, 10, 12, 16 All Rights Reserved

M-123145

Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if You are 10 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Collection Costs:
You agree to pay all costs of collecting the amount You owe under this Agreement, including court costs and reasonable
attorney's fees.
Periodic Rates:

The Purchase APR is 7.90% which is a monthly periodic rate of 0.6580%.
The Balance Transfer APR is 7.90% which is a monthly periodic rate of 0.6580%.
The Cash Advance APR is 15.90% which is a monthly periodic rate of 1.3250% .

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

M-123145

03105847-MXC20-P-1-081817 (MXC201-E)

